1

IN THE
SUPREME COURT OF THE UNITED STATES

RAYMUNDO EUSEBIO-NORIEGA
if

PETITIONER

n

VS.
BRAD CAIN, Superintendent,
Snake River Correctional Institution
Respondent

FILED
NOV 0 6 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS AND REQUEST FOR COUNSEL

The petitioner Raymundo E. Noriega Pro Se, request leave to file the attached petition for
writ of certiorari to the United States Court of Appeals for the Ninth Circuit without prepayment
of cost and to proceed in forma pauperis pursuant to Rule 39.1 of this Court and 18 U.S.C. §
3006A9D)(7). Petitioner is not represented by counsel in the above entitled matter and, pursuant
to 18 U.S.C. § 3006A(2)(B), respectfully requests this Court for its order appointing counsel to
represent plaintiff in this matter.
Re-Submitted on:

DATED this 10th day of May 2021
/l/'TyD

Pemioner Pro Se,
^
Raymundo Eusebio Noriega
Sid #18199007
Snake River Correctional Institution
111 Stanton Blvd
Ontario, OR. 97914
Page 1 of 1

No.

IN THE
SUPREME COURT OF THE UNITED STATES

o EisAlyft TOofifffi— PETITIONER
(Your Name)
VS.

^)raaj||_frxitA

— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
[^Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
r-V
\ ole o b
VJ - S. Dvn-\- riQfk
OvS.

<o\\ <pAt?t4-p. rjaci/T^r%. .

□ Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
□^Petitioner’s affidavit or declaration in support of this motion is attached hereto.
□ Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
□ The appointment was made under the following provision of law:
, or
□ a copy of the order of appointment is appended.

"Fay

llU/i-e#.
(Signature)

JAN 2 5 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S..

